United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
LAREDO DIVISION
CHRISTIAN JOSEPH PEREZ
Petitioner

July 12, 2019
David J. Bradley, Clerk

§
§
§

VS.

§
§

CIVIL ACTION NO. 5:18-CV-82
CRIM. ACTION NO. 5:16-CR-1284

UNITED STATES OF AMERICA

§

.

MEMORANDUM & ORDER
Petitioner Christian Joseph Perez, USM No. 19381-479, is a federal inmate confined by
the Bureau of Prisons. (Dkt. 1 at l.1) In June of 2017, U.S. District Judge George P. Kazen
sentenced Petitioner to 120 months in prison after he pleaded guilty to coercion and enticement
of a minor. (Cr. Dkt. 46 at 1-2.) Now before the Court is Petitioner’s pro se motion to vacate, set
aside, or correct his sentence under 28 U.S.C. § 2255. (Dkt. 1; Cr. Dkt. 48.) The Court has
examined Petitioner’s motion in accordance with Rule 4 of the Rules Governing § 2255
Proceedings. Because it plainly appears from the motion and the record of prior proceedings that
Petitioner’s claims are without merit, his motion must be denied.
Factual Background
On October 4, 2016, an undercover Homeland Security Investigations agent (“the UC”)
responded to an ad Petitioner had posted online expressing his interest in incestuous
relationships. (Cr. Dkt. 4 at 2; Cr. Dkt. 35 at 1.) The UC posed as an adult male who was
sexually abusing his girlfriend’s 14-year-old daughter. (Cr. Dkt. 35 at 1.) The UC offered the
child to Petitioner for sex, and Petitioner detailed to the UC the sexual acts he wished to perform
with her. (Cr. Dkt. 4 at 2.) When asked if he was bothered by the child’s age, Petitioner
i <<

Dkt.” indicates a citation to the record in Civil Action No. 5:18-CV-82. “Cr. Dkt.”
indicates a citation to the record in Petitioner’s underlying criminal case, Criminal Action No.
5:16-CR-1284.
1/9

responded: “No, the age doesn’t bother me a bit. I love young girls.” (Cr. Dkt. 35 at 1.) Petitioner
and the UC arranged to meet at a Laredo business on October 20, 2016 so that Petitioner could
engage in sexual activity with the child.2 (Cr. Dkt. 4 at 2; Cr. Dkt. 35 at 2.) Petitioner drove to
Laredo from his home in Austin and was arrested upon arrival at the designated meeting
location. (Cr. Dkt. 4 at 2; Cr. Dkt. 39 at 5-6.) The following month, a Laredo grand jury indicted
Petitioner for possession of child pornography and attempted coercion and enticement of a child.
(Cr. Dkt. 12.) Petitioner pleaded guilty to the enticement charge in exchange for the dismissal of
the child pornography charge. (Cr. Dkt. 33; see Cr. Dkt. 39 at 4.) In June of 2017, U.S. District
Judge George P. Kazen sentenced Petitioner to the statutory minimum of ten years
imprisonment. (Cr. Dkt. 46 at 1—3.) See48 U.S.C. § 2422(b).
Petitioner has now filed a § 2255 motion seeking to vacate his conviction and sentence.3
(See Dkt. 1 at 48.) Although Petitioner has divided his allegations into three grounds for relief,
they all arise from the same alleged defect in the factual basis of his plea. In short, Petitioner
claims that the factual statements supporting the plea, although true, fail to allege an essential
element of the crime. (Id. at 19-48.) In light of this central infirmity, Petitioner argues that (1)
his attorney rendered ineffective assistance by encouraging him to plead guilty rather than
moving to dismiss the indictment (id. at 4—6);. (2) the factual basis of his plea agreement was

2 It is unclear whether Petitioner expected the child to be present at the initial meeting
location. The factual basis of the plea agreement says only that Petitioner “travelled to Laredo to
meet the UC and child.” (Cr. Dkt. 35 at 2. (emphasis added)) The criminal complaint, however,
states that Petitioner expected to meet the UC alone and then travel together to the UC’s home to
engage in sexual activity with the child. (Cr. Dkt. 4 at 2.)
3 Petitioner has also filed an application to proceed in forma pauperis. (Dkt. 2; Cr. Dkt.
49.) However, because a § 2255 motion is in effect a continuation of the underlying criminal
case, Petitioner need not pay a civil filing fee. United States v. Cole, 101 F.3d 1076, 1077 (5th
Cir. 1996); see United States v. Moore, 2009 WL 189294, at *1 (S.D. Tex. Jan. 26, 2009). His
application to proceed in forma pauperis will therefore be denied as moot.
2/9

constitutionally insufficient (id. at 7); and (3) the Court itself erred by accepting his guilty plea
without recognizing the insufficiency of the factual basis (id. at 9).
Legal Standard
A federal prisoner may move to vacate, set aside, or correct his sentence if: (1) the
sentence was imposed in violation of the Constitution or the laws of the United States; (2) .the
district court was without jurisdiction to impose the sentence; (3) the sentence imposed was in
excess of the maximum authorized by law; or (4) the sentence is otherwise subject to collateral
attack. 28 U.S.C. § 2255(a). Generally, a defendant may waive his right to relief under § 2255 in
his plea agreement so long as the waiver is knowing and voluntary. See United States v. Ramirez,
416 F. App’x 450, 452—53 (5th Cir. 2011) (per curiam). However, even a valid waiver “does not
bar review of a claim that the factual basis for a guilty plea fails to establish the essential
elements of the crime of conviction.” United States v. Trejo, 610 F.3d 308, 312 (5th Cir. 2010);
see United States v. Crain, 877 F.3d 637, 645 (5th Cir. 2017). Rather, a court must determine
that there is an adequate factual basis for each element of the offense before it may enforce the
waiver against any additional arguments raised on collateral attack. United States v.
Hildenbrand, 527 F.3d 466, 474 (5th Cir. 2008).
Discussion
The essence of all three of Petitioner’s nominally separate claims is that the factual basis
supporting his plea agreement lacks allegations as to an essential element of the offense. (See
Dkt. 1 at 19-20.) Thus, even though Petitioner waived his collateral-attack rights in his plea
agreement (Cr. Dkt. 33-at 4), his § 2255 motion survives because “[e]ven valid waivers do not
bar a claim that the factual basis is insufficient to support the plea.” Crain, 877 F.3d at 645
(quoting Hildenbrand, 527 F.3d at 474). The Court will therefore consider his argument on its
3/9

merits.
The statute under which Petitioner was convicted, 18 U.S.C. § 2422(b), requires the
Government to prove four elements:
(1) [The defendant] used a facility of interstate commerce to commit the offense;
(2) he was aware that [the intended victim] was younger than eighteen; (3) by
engaging in sexual activity with [the intended victim], he could have been
charged with a criminal offense under Texas law; and (4) he knowingly
persuaded, induced, enticed, or coerced [the intended victim] to engage in
criminal sexual activity.
United States v. Rounds, 749 F.3d 326, 333 (5th Cir. 2014). To prove attempted enticement, the
Government must also show that the defendant took a “substantial step” toward realizing his
intent to persuade, induce, entice, or coerce a child into sexual activity. United States v.
Broussard, 669 F.3d 537, 547 (5th Cir. 2012); “Mere preparation” alone is not a substantial step;
the defendant must have engaged in “conduct which strongly corroborates the firmness of [his]
criminal attempt.” United States v. Barlow, 568 F.3d 215, 219 (5th Cir. 2009) (quoting United
States v. Farner, 251 F.3d 510, 513 (5th Cir. 2001)).
Petitioner admits all the facts used by the Government to support his plea; he challenges .
only whether those facts are sufficient to show the culpable intent and “substantial step” required ‘
by the final element of the statute. (Dkt. 1 at 27-28.) In his view, he lacked the intent required to
coerce or entice a child because his communications were directed exclusively to the adult UC.
(Id.) In addition, he argues that his conduct cannot support an attempted enticement conviction
because he did not take a “substantial step” toward engaging in prohibited sexual activity. (Id. at
35—47.) The Court will address each of these claims in turn.
A.

Intent
Petitioner acknowledges that a defendant may violate 18 U.S.C. § 2422(b) solely by

communicating with an adult whom he knows to be an adult if he “direct[s] some of his intended
4/9

inducements to the [child],” as by sending explicit photos or videos with instructions for the
adult to show them to the child. United States v. Olvera, 687 F.3d 645, 647—48 (5th Cir. 2012)
. (per curiam). (See Diet. 1 at 30.) However, Petitioner attempts to distinguish his own conduct
from the conduct described in Olvera on the ground that he spoke only with the adult UC and he
never directed any communications to the (fictitious) child herself. {Id. at 4—5, 28-31.) In his
view, a defendant cannot “knowingly . . . enticef]” a minor if none of his conduct is aimed
directly at her. Rounds, 749 F.3d at 333. {See Dkt. 1 at 30-31.)
Petitioner might have gained traction with this argument in the immediate aftermath of
Olvera. After all, the Olvera court “expressly reserved judgment” on whether a defendant who
“did not seek to have any of his communications with the adult [intermediary] passed on directly
to a child” may nevertheless be liable under § 2422(b). United States v. Caudill, 709 F.3d 444,
446 (5th Cir. 2013); see Olvera, 687 F.3d at 648. By the time of Defendant’s indictment,
however, the Fifth Circuit had resolved that question in the affirmative. In Caudill, the court held
that although “a defendant’s acts must target a child, the terms ‘persuade,’ ‘induce,’ ‘entice,’ or
‘coerce’ do not require that . . . a perpetrator must request an intermediary to convey the
perpetrator’s communications to a minor.” Caudill, 709 F.3d at 447. Rather, the statutory
prohibition encompasses any conduct that aims to “indirectly secure[] a child’s assent to
unlawful sexual activity through an adult intermediary.” Id. In Caudill, that conduct took the
form of emails to an undercover police officer seeking “confirmation that the [intended child
victims] would engage in ... deviate sexual intercourse and agreeing] to pay their caretaker one
hundred dollars to take them to a hotel for the contemplated encounter.” Id. Although the record
in this case does not indicate that Petitioner ever discussed payment with the UC, Petitioner
admits that he corresponded with the UC with the express goal of arranging a sexual encounter
5/9

with a minor. (See Dkt. 1 at 35.) Because that admission “make[s] abundantly clear that he
anticipated the [UC] would lead [Petitioner’s intended victim] to submit to sexual activity,” no
evidence of communications directed at the minor is required. Caudill, 709 F.3d at 447.
In fact, following Caudill, the Fifth Circuit has repeatedly affirmed convictions based on
conduct nearly identical to Petitioner’s. In United States v. Montgomery, for example, the
defendant had attracted the attention of law enforcement by posting an ad for sex on Craigslist.
746 F. App’x 381, 383 (5th Cir. 2018) (per curiam). An undercover FBI agent posing as the
mother of a ten-year-old daughter responded to the ad stating that “she was looking ‘to watch
somebody be engaged in sexual activity with her child’ for purposes of her sexual stimulation.”
Id. (internal alterations omitted). Over the next few weeks, the defendant expressed interest in
the agent’s proposition, “described how he would engage in sexual contact with the child,” and
eventually arranged a meeting with the agent and the fictitious child. Id. Just like Petitioner, the
defendant was arrested upon arrival at the designated meeting place. Id. at 384. And just like
Petitioner, the defendant later sought to vacate his conviction on the ground he lacked the
requisite intent to violate § 2422(b). Id. Citing Caudill, the Fifth Circuit flatly rejected the
defendant’s argument that “a violation of § 2422(b) .... requires [that the] defendant’s interaction
with the intermediary be aimed at transforming or overcoming the child’s will.” Id. The court
emphasized that “our circuit requires only that defendant take actions directed toward obtaining
the child’s assent through an intermediary.” Id. at 385, That may be achieved solely by “relying
on a parent’s influence or control over the child”; no conduct need be directed at the child
herself.4 Id.

4 Petitioner suggests that the case law on adult intermediaries applies only to parents and
legal guardians of intended victims. (Dkt. 1 at 34-35.) He argues that because the UC claimed
only to be dating the intended victim’s mother, Petitioner could not have known whether the UC
6/9

page

\

X'l

Caudill’s holding is not up for debate. The Fifth Circuit has reached the same conclusion
in at least two other cases involving defendants who attempted to arrange sexual encounters with
minors .through adult intermediaries without directing any communications to the minors
themselves. See United States v. Andrus, 745 F. App’x 235, 236 (5th Cir. 2018); United States v.
Wicks, 586 F. App’x 176, 177-78 (5th Cir. 2014) (per curiam); see also United States v. Howard,
766 F.3d 414, 421 n.7 (5th Cir. 2014) (“The Fifth Circuit has held the nonexistence of the‘>minor
and communication through an adult intermediary are not viable defenses to criminal liability
under § 2422(b).”). As the court recently noted, any argument that “§ 2422(b) requires the
defendant to make or attempt making direct contact with the minor victim ... is foreclosed by
Caudill.” Andrus, 745 F. App’x at 236. Because Petitioner’s communications were aimed at
obtaining the child’s assent by way of the UC, they plainly satisfy the statute’s intent
requirement.
B.

Substantial Step
Petitioner argues that even if the facts supporting his guilty plea establish the requisite

intent, they fail to show that he made a “substantial step” toward realizing that intent. (Dkt. 1 at
5, 35-47.) See Broussard, 669 F.3d at 547. Petitioner admits that he arranged to meet the UC at a
designated location in Laredo and that he in fact drove to that location on the specified day. (Dkt.
1 at 47.) However, he argues that “the meeting was never finalized” because he was arrested
before he could send a text message notifying the UC of his arrival. (Id.; see Cr. Dkt. 35 at 2.) In
had enough “influence or control over the minor” to actually induce her assent to sexual activity.
(Id. at 34.) However, Petitioner clearly relied on the assumption that the UC did have control
over the minor when he accepted the UC’s offer of sex with her and traveled from Austin to
Laredo to take him up on it. (Cr. Dkt. 4 at 2; Cr. Dkt. 39 at 5-6.) Moreover, courts across the
country have upheld § 2422(b) convictions predicated on communications with adult
intermediaries who offered their girlfriends’ children for sex. See, e.g., United States v.
Worsham, 479 F. App’x 200; 205 (11th Cir. 2012) (per curiam); United States v. Lanzon, 613 F.
Supp. 2d 1348, 1349 (S.D. Fla. 2009).
7/9

his view, without this final piece, neither the scheduling of the meeting nor his arrival at the
agreed-upon location constitutes a substantial step toward completion of the crime. He attempts
to distinguish contrary case law on the same ground discussed above—that in most cases the
defendant had communicated directly with a minor or an undercover agent posing as a minor, not
with an adult intermediary. (See Dkt. 1 at 41-47.)
Petitioner’s argument is unavailing. Controlling case law clearly holds that “[tjravel to
•

i

a meeting place is . . . sufficient to establish” a substantial step toward an attempt to
violate § 2422(b). Howard, 766 F.3d at 421; see United States v. Lundy, 676 F.3d 444, 449 (5th
Cir. 2012) (“[The defendant] also showed up at the location of the meeting... which indicates
a substantial step towards completion of the crime.”). This is true regardless of whether the
defendant expected to meet the minor or only the minor’s adult intermediary at the designated
location. See United States v. Salcedo, 924 F.3d 172, 175 (5th Cir. 2019) (per curiam).
Moreover, the defendant need not make actual contact with anyone at the meeting location. Even
abandoning the attempt by leaving the location early cannot “undo the substantial steps [a
defendant] ha[s] already taken” by arranging and traveling to the meeting. Barlow, 568 F.3d at
219-20.
In short, controlling Fifth Circuit precedent establishes that Petitioner possessed the
requisite intent to violate § 2422(b) and took a substantial step toward completing that violation.
Thus, the factual basis of Petitioner’s guilty plea is sufficient to support his conviction, Petitioner
is not entitled to collateral relief, and his § 2255 motion must be denied. Because Petitioner has
not raised “a factual dispute which, if resolved in [his] favor, would entitle him to relief,” the
Court must also deny his accompanying motion for discovery. Clark v. Johnson, 202 F.3d 760,
766 (5th Cir. 2000); see Thaw v. United States, 2016 WL 7839181, at *1 (N.D. Tex. July 19,
8/9

page I#

2016).
Conclusion
For the foregoing reasons, Petitioner’s motion to vacate, set aside, or correct his sentence
under 28 U.S.C. § 2255 (Diet. 1; Cr. Diet. 48) is DENIED. Petitioner’s application to proceed in
forma pauperis (Diet. 2; Cr. Diet. 49) is DENIED as MOOT. Petitioner’s motion for discovery
(Dkt. 3; Cr. Diet. 50) is DENIED. Finally, Civil Action No. 5:18-CV-82 is hereby DISMISSED
with PREJUDICE.
Because the Court finds that Petitioner makes no substantial showing of the denial of a
constitutional right, a certificate of appealability will not issue. See 28 U.S.C. § 2253(c)(2). The
Court certifies that any appeal from this decision would not be taken in good faith and therefore
should not be taken in forma pauperis. See 28 U.S.C. § 1915(a)(3); Fed. R.'App. P. 24(a)(3). .
The Clerk of Court is DIRECTED to mail Petitioner a copy of this Order by Federal
Express at the address indicated in his most recent filing. The Clerk is further. DIRECTED to
TERMINATE this case.
IT IS SO ORDERED.
SIGNED this 12th day of July, 2019.

Diana Saldana
United States District Judge

9/9

pa^<2.

1)0

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-40714
A True Copy
Certified order issued Jul 16, 2020

duA W. OomO.

UNITED STATES OF AMERICA,

Clerk, U.S. Court of Appeals, Fifth Circuit

Plaintiff-Appellee
v.
CHRISTIAN JOSEPH PEREZ,
Defendant-Appellant
Appeal from the United States District Court
for the Southern District of Texas .
ORDER:
Christian Joseph Perez, federal prisoner # 19381-479, moves for a
certificate of appealability (COA) to appeal the denial of his 28 U.S.C. § 2255
motion challenging his guilty plea conviction for attempting to coerce and
entice a minor to engage in criminal sexual activity. He also moves for leave
to proceed in forma pauperis (IFP) on appeal. Perez contends that (1) his trial
counsel advised him ineffectively in relation to his guilty plea; (2) his guilty
plea is not supported by an adequate factual basis; and (3) the district court
therefore erred by accepting his guilty plea.
To obtain a COA, Perez must make “a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). To meet that burden, he must
show that “reasonable jurists would find the district court’s assessment of the

p<\cje, 31
l\

No. 19-40714
constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473,
484(2000),
Perez fails to make the requisite showing. Accordingly, the motion for a
COA is DENIED. The motion to appeal IFP is DENIED AS MOOT.
/s/Patrick E. Higginbotham
PATRICK E. HIGGINBOTHAM
UNITED STATES CIRCUIT JUDGE

2

Case: 19-40714

Document: 00515665541

Page: 1

Date Filed: 12/08/2020

IHntteb States! Court of appeals:
for tfje jftftij Circuit
No. 19-40714

United States of America,
Plaintiff—Appellee,
versus
Christian Joseph Perez,
Defendant—Appellant.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 5:18-CV-82

Before Higginbotham, Smith, and Oldham, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED Appellant’s motion for
certificate of appealability and further denied as moot the motion to proceed
in forma pauperis. The panel has considered Appellant's motion for
reconsideration.
IT IS ORDERED that the motion is DENIED.

Appex\<A»>c <L
pcx^e -33

